, .




           IMPLEMENTATION OF                       THE STATE
           LEGALIZATION IMPACT ASSISTANCE
           GRANTS UNDER THE IMMIGRATION
            EFORM AND CONTROL ACT OF 1986

                               STA TE   OF   NEW YORK




              f.1\VIC!'S'




      '0


           :tlt"dIa


      OFFICE OF INSPECTOR GENERAL
      OFFICE OF ANALYSIS AND INSPECTIONS
                                                        OCTOBER 1989
                                                                                               'r '





                        OFFICE OF INSPECTOR GENERAL


The mission of the Offce of Inspector General (OIG) is to promote the effciency, effective­
ness, and integrty of progrs in the United States Deparent of Health and Human Ser­
vices (HS). It does this by developing methods to detet and prevent fraud, waste, and
abuse. Created by statute in 1976, the Inspector General keeps both the Secreta and the Con­
gress fully and cUIently informed about programs or management problems and recommends
corrective action. The OIG perform its mission by conducting audits, investigations, and in­
spections with approximately 1 300 sta strategically located around the countr.


                    OFFICE OF ANALYSIS AND INSPECTIONS


This report is produced by the Offce of Analysis and Inspections (OAI), one of the thee
major offces within the OIG. The other two are the Offce of Audit and the Offce of Investi­
gations. Inspections are conducted in accordace with professional stadads developed
OAl. These inspections ar tyically short-term studies designed to determne program effec­
tiveness, effciency, and vulnerability to fraud or abuse. Ths study was conducted to deter­
mine the effectiveness of New York' s implementation of State Legalzation Impact Assistace
Grants funds awarded under the Immgration Reform and Control Act of 1986. The report
was prepared under the diection of Don McLaughlin , the Regional Inspector Genera of Re­
gion VII, Office of Analysis and Inspections. Parcipating in this project were the following
people:

Kansas City                                San Francisco
Hugh Owens,    Project Leader              Apryl Willams
Raymond Balandron
James Wolf
Alicia Smith


Headquarters                               New York
Albert J. Nace,                            Lucile M. Cop
Debra Robinson
  IMPLEMENTATION OF THE STATE

LEGALIZATION IMPACT ASSISTANCE

 GRANTS UNDER THE IMMIGRATION

REFORM AND CONTROL ACT OF 1986

                   STATE       OF   NEW YORK





                           Richard P. Kusserow
                           INSPECTOR GENERAL




OAI- 07 -88-0044                                 OCTOBER 1989
                                EXECUTIVE SUMMARY


PURPOSE
The purose of ths inspection was to determe how effectively New York implemented the
State Legalization Impact Assistace Grants (SLIAG) program, to identi potential problems
early in the process, and to identiy goo practices which all States could share.

BACKGROUND

The SLIAG progr was established under the Imgration Reform and Control Act (IRCA)
of 1986 to reuce the fmancial burden of providig public assistace, public health assistace,
and educational servces to eligible legalze aliens. In Fiscal Year (F) 1988, $928. 5 miion
in progr fuds were allocated to States, and funds wi contiue to be alocated though FY
1991. These fuds also cover admnistrtive costs for implementig SLIAG at the State and
local levels. Payments are made for public assistace activities generaly avaiable to all
needy individuals and public health assistace servces offered under the States '
                                                                             public health
progrs. The payments also cover educational servces designed to assist eligible legalzed
alens to att a satisfactory level of performce in school and to achieve English language
proficiency and citizenship skis necessar to become permanent residents. The Famy
Support Admnistrtion (FSA) is responsible for admistering the program.

Because SLIAG was a new progr, FSA realzed that problems would surace early in its
implementation. In addition to the norm diculties encountered in creatig new processes
and procedur s, FSA recognze that SLIAG would have unique problems. Some of these
issues include the diversity of programs which SLIAG encompasses, cultu and language
barers associated with the servce population, maintaing confidentiality of information , and
the extremely short time fres     for the grt award process.

METHODOLOGY

In response to the anticipated diculties with implementing SLIAG, FSA requested that the
Offce of Inspector General (OIG) conduct reviews in 10 States to determne the progress of
States ' implementing ths progr. The FSA selected nine States and the Distrct of
Columbia because of the varety of programs they offere, the number of eligible legalzed
alens in the population , or the amount of the grt. The nine States ar Arzona, Calfornia,
Colorado, Florida, Ilois, Massachusetts, New York, Texas, and Washigton.

Interviews based on strctu      discussion guides for each major program ara, as well as
documentation fuished by FSA and State and local offcials, built the base of information for
this report. This report represents the review conducted in the State of New York and report
on its implementation of the SLIAG program as of August 1988.
Both FSA and New York were commtt to identing problems and developing innovative
and effective solutions for them. Imediately following our on-site visits, FSA was given an
outline of the State concerns identied in this report


FINDING: Since 
 1987 FSA has held national conferences and issued information to
States on implementing the SUAG program.

                   The FSA held several national conferences beginning in 1987 to share
                   inormation with States on SLIAG legislation, the implications for States, the
                   application process, and the documentation of costs.

                   The FSA also provided States with "Question and Answer" issuances and
                   demogrphic data from the Imgration and Natualization Servce.

FINDING: New York evaluated its ability to idntify eligible legalzed aliens, documented
costs for serves, and took steps to ensure compliance with SLIAG requirements.

                   The State Deparent of Social Servces instrcted local social service distrcts
                   to identi and mantan a manual list of inormation on individuals who are
                   determned to be eligible for SLIAG-reimburable assistace and services. The
                   inormation would be maintaied in the client s record where it would be
                   avaiable for enterig into the automated State/Federal Charge Indicators for
                   Servce System, when the system is operational.

                   In the New York City area, major educational servce providers were aleady
                   par of a centrized data system known as " Alles. " Plans were to mody this
                   system to document costs for servces to identified eligible legalized alen
                   students.

FINDING: New York will use a wide network of educatonal serve providers, assess the
educatinal stats of eligible legalized aliens, and refer them to appropriate programs.

                   The State Deparent of Education wil use a wide varety of CUlent
                   educational service providers, though contracts, to conduct SLIAG-related
                   educational progr.      These providers have proven their effectiveness in
                   delivering instrction in English for speakers of other languages, citizenship,
                   adult basic education, and high school equivalency for out-of-school youths and
                   adults.

                   To meet the parcular needs of eligible legalized alens, educational agencies
                   receiving SLIAG funds are expected to conduct a pre-enrollment appraisal not
                   only to acquir SLIAG-related eligibilty information , but also to assess
               English-speakng abilty and knowledge of the history and governent of the
               Unite States. Based on the apprasal, individuals wi be referred to appropriate
               progrs and program levels.

Neverteless, there are some funds contrl vulnerabilties.


FINDING: The State       had not developed   formal procedures for peridic   reviews of   cash bal­
ances.

               The Deparent of Social Servces, the grtee agency, had not formalzed a
               process to monitor cash balances that may occur as a result of interdeparenta
               transfers of SLIAG funds.

FINDING: The FSA' s definition of public assistance includes some public health assis­
tance activies    which created administrative and servce delivery problems for New York.

FINDING: The FSA applicaton review process creatd a number of signifcant problems
for New York. Also, the FSA' s   applicaton review   process interfered with the State s abilit
to plan for   servces.


               Delay in FSA issuig the implementing regulation resulted in the State
               inabilty to properly plan for SLIAG.



               Numerous policy misinterpretations and disagreements resulted because FSA
               did not provide definitive wrtten instrctions to assist New York in
               understadig SLIAG application requirements.


               The tie frames were too short for submittig the intial SLIAG application
               review and comment, and revisions of the application.

               Implementig SLIAG- funded programs was delayed because of a signifcant
               delay in notiyig New York of the grt awar.

FINDING: The State did not have methodologies in place to identify eligible legalized
aliens to record costs for public assistance and public health assistance.

FINDING: State interdepartental Memorandums of Understanding outlining each
departenfs liability for SLIAG funding purposes had not been finalized.
As mentioned earlier, FSA and New York have aleady initiated action on some of the
recommendations made in this report. Steps have been taen by FSA to provide States with
more specific, formal guidelines for identifyng and documentig actual program and
admnistrtive costs. However, additional actions ar necessar in other areas on the par of
FSA and New York.


RECOMMENDATION: The Departent of Socia Serves should develop and implement
formal procedures to ensure that the departent is aware of cash balances that may exist as
a result of   interdepartental transfers of SLIAG funds.
RECOMMENDATION: The FSA should reconsider its position to classif certain public
health servces as public assistance and make approprite adjustments to this positon.

RECOMMENDATION: The FSA should make its appUcation and grant process more or­
derly. Specifcally, FSA should

                provide defiitive wrtten instrctions on the SLIAG application requirments
                and establish a dialogue with New York on SLIAG policy, compliance, and
                reportng issues to minimize the confusion that occured in the intial application
                process;

                ensur that suffcient tie     is allotted to the application process includig New
                York' s intial application , FSA' s review and formal comment, New York'
                consideration of FSA comments and negotiation of disputes, and its submission
                of the revised application for FSA approval; and

                revise the grant award proess for approved applications so that the notice of
                grant award reaches New York prior to the beginning of the fiscal year.

RECOMMENDATION: The Departents of Social Servces and Health should develop
and implement a process to effectively identify indiviual eligible legaUzed aliens.

RECOMMENDATION: The Stat should take the necessary action to finalize all Memo­
randums of Understanding so tha interagency responsibilitis can be clearly set forth and
acted upon as necessary.


COMMENTS

The FSA and the State of New York both commented on the drt report They generaly
agreed with our fmdings and recommendations. Both indicated indicated steps had been taken
to furer implement the SLIAG program. Their comments are included verbatim in
appendices B and C, respectively.
                                                                                                                                                                             ...........




                                                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY


 NTRO D U CTIO N ... ...11........ ... ....... ......... lIe8 111111..   II..11.... II ... II
                                                                   8... II                 11"11II ....11..11 II 11.11II II.. II II II 11"11                   II.. II II II II IIII .....

                                                                                                                                                     II II 11..11
                                                                                                                                           11..11111111




NEW YORK' S ORGANIZATIONAL STRUCTURE ........................................                                                                                                                                   3




FINDINGS AND RECOMMENDATIONS ...80...0...11....1111...."...........8...,....111111..................... 4


                    Pu bl i c Assistance..                        lie II... .... ...        II"" ....... II...

                                                                                       11111111..            It 11..11.......... 11.11..................   11.11.............11.............. II" ... II"   ..11 5



                    Pu bl ic Health Assistance... II......." ... II".."" 11111111
                                                                              ..11... II..."".."".." 111111.11

                                                                                                          11.11......11 II"""." II"".."" ...11 7




                    Ed ucation ..... ... ....11....11... II .."11 ..11........ II.... II 11111111             11....11.......... 11l111......111111..

                                                                                              11.11...... 111111                                                                           11.11........ 111111 



                   Crosscutting Issues                                ..1111.......11111111111101111.........11..11111111.......1111111111.,....11.....a.II.,................ 





OIG RESPONSE TO COMMENTS ...11.".......11.1111.....11..11..11110.....,..11.....11...111111..,........11.................0 



APPENDICES

                   APPENDIX A: Good Practices......................................... ...................... A­


                   APPENDIX B: FSA' s Comments ...................................11........... ............ B­


                   APPENDIX C: New York' s Comments ...,............................................... C­

                                     INTRODUCTION



PURPOSE
The Famy Support Admistrtion (FSA) reuested that the Offce of Inspector General
(OIG) conduct an inspection in nine States and the Distrct of Columbia to determe how
effectively the States implemented the State Legalzation Impact Assistace Grats (SLIAG)
progr awarded under the Imgration Reform and Control Act (ICA) of 1986. The
inspection included reviewig mechansms in place to identify these funds and determning
whether present or projected policies and proedures adere to FSA guidelies. The FSA also
was interested in identifyg potential problems early in the process and goo practices which
al States could shar. Ths report presents the results of the inspection   pertg to the State
of New York.



BACKGROUND

Under IRCA , eligible legalize aliens may apply for permanent residency with a I- year

period afer they are fIrst eligible (Le., by the 31 st month after they receive temporar resident

status).


Ths new population will increase the demand for State public assistance and public health

assistace servces signcantly. It wi also increase the demand for State educational servces

as these new residents obta English language and civic skils needed to become U.

citiens.


To help States defray many of the costs of providing public assistace, public health
assistace, and educational servces to eligible legalze aliens, IRCA authorized $1 bilion
each year from Fiscal Year   (F   1988 thugh 1991 for SLIAG grts, less an amount
identied as the "Federa offset. " With few exceptions, eligible legald alens ar ineligible
for federaly funded public assistance progrs such as Aid to Fames with Dependent
Chidrn (AFC), foo stamps, and Medcaid. The "Federal offset" is the estiated cost
the Federal Governent of providig these servces or benefits to those few legalizd aliens
who ar eligible for them. In FY 1988, the law alocated $928. 5 millon to States.

To receive SLIAG funds, States must apply to the FSA Division of State Legalization
Assistace, which is responsible for approving applications and admnistering the program.
The application must be approved in tota for a State to receive any SLIAG funds. The FSA
also provides States with technical assistace on policy issues and on the methods used to
determne costs and verify actual costs.
The basic reuiment for States to clai reimburement is that costs must be alowable,
reasonable, and alocable. State public assistace and public health assistance program must
be the same ones available to the general public. States cannot create new program in these
areas specifcaly for eligible legalize alens. However, States may create new or addtional
education progrs for eligible legalze aliens. States may also claim reimbursement for
progr admstrtive and SLIAG admistrative costs.

Reimburement for public assistace and public health assistace is lited only to the amount
of State and local funds expended for SLIAG-related costs. The maxum SLIAG
reimbursement for educational servces is an average of $500 per year per eligible legalzed
alen. Determg progr adnistrtive costs is made in accordace with the fmal
reguation at 45 CF 402. 22.

The FSA is responsible for adnistering the program Because SLIAG was a new program,
FSA  real     that problems would surace early in its implementation. In addition to the
norm diculties encountered in creatig new processes and proedures, FSA recognizd
that SLIAG would have unque problems. Some of these issues include the diversity of
progrs which SLIAG encompasses, cultual and language baners associated with the
servce population , maintaing confdentiality of inormation , and the extrmely short time
fres   for the grant award process.


METHODOLOGY

The FSA selected nie States and the Distrct of Columbia for the inspection because of the
varety of program offered, the number of eligible legalized aliens in the population , or the
amount of the grt. The nine States are Arzona, California, Colorado, Florida, lllinois,
Massachusetts, New York, Texas, and Washington. This report reviews New York'
implementation of the SLIAG progr as of August 1988.

Pror to conductig the inspection, the OIG developed strctu discussion guides for each
major program activity at the State and local levels. In conducting this review, intervews
were held with offcials from the Deparent of Social Servces, the State Deparent of
Health' s Division of Epidemiology, and the State Education Deparent s Burau of Adult
and Continuing Education Progr Development Additional telephone discussions were also
held.

The visits were coordinated by staf frm the Deparent of Social Servces, Offce of Audit
and Qualty Control. Pror to the on-site visit, materials furished by the Deparent of
Social Services ' Burau of Policies, Plans and Program were reviewed, as well as the
application approved by FSA. Materials supplied by respondents were also reviewed.
                NEW YORK' S ORGANIZATIONAL STRUCTURE



The Deparent of Social Servces is responsible for the State s public assistace activities,
and has been designated as the single point of contact and the grantee agency for the SLIAG
progr. Day-to-day admnistrtion of the program is in the Offce of Famly and Chidren
Servces, and the State s Refugee Coordinator has been negotiatig the application.

The State Deparent of Health, which is responsible for State public health servces, is
divided into two sections: the Offce of Health Systems Management and Public Health. The
SLIAG health progrs ar admstered by the Division of Epidemiology, which is in the
Public Health section. Each county has its own public health organation usualy headed by
regional health deparent offcial. State- level sta deal dictly with individual county
offcials. The ultiate responsibilty rests with the State.


The admstration and supervsion of SLIAG-related education services rests with the State
Deparent of Education and its Burau of Adult and Continuing Education Program
Development The enti progr wil be admnistered at the State level.
                              FINDINGS AND RECOMMENDATIONS



Both FSA and New York were commtt to identig problems and developing innovative
and effective solutions for them. Imedately following our on-site visits, FSA was given an
outle of the State concerns identied in ths report
FINDING: Since        1987,     FSA has held national conferences and issued information to
Stats on implementing          the SUAG program.

                 The FSA held several national conferences beginning in 1987 to share
                 inormation with States on SLIAG legislation, the implications for States, the
                 application process, and the documentation of costs.

                 The FSA also provided States with "Question and Answer" issuances and
                 demographic data from the Imgrtion and Natuization Servce.

FINDING: New York evaluated its ability to idntify eligible legalized aliens, documented
costs for serves, and took steps to ensure compliance with SUAG requirements.


                 The State Deparent of Social Servces instrcted local social service distrcts
                 to identi and maintain a manual list of information on individuals who are
                 determed by the State to be eligible for SLIAG-reimbursable assistace and
                 servces. The information would be maitaied in the client s record where it
                 would be avaiable for entering into the automated StatelFederal Charge
                 Indicators for Service System , when the system is workig.

                 In the N ew York City area, major educational service providers were aleady
                 par of a centrze data system known as "Ales. " Whe plans were to modfy
                 ths system, the State has found it more expedtious for agencies to develop its
                 own SLIAG data base for reportng and documenting costs.

FINDING: New York will use a wide network of educatonal serve providers, assess the
educatnal stas of eligible legalized aliens, and refer them to appropriat programs.
                 The State Deparent of Education will use a wide varety of curent
                 educational servce providers, though contracts, to conduct SLIAG-related
                 educational program. These providers have proven their effectiveness in
                 deliverig instrction in English for speakers of other languages, citizenship,
                 adult basic education, and high school equivalency for out-of-school youths and
                 adults. The providers include local educational agencies, postsecondar
                 institutions, qualified designated entities, community- based organizations, and
             other public and private not-for-profit agencies, such as school distrcts, Boards
             of Cooperative Educational Services, libraes, and volunteer groups.



             In order to meet the parcular needs of eligible legalied alens, educational
             agencies receivig SLIAG funds are expected to conduct a pre-enrollment
             appraisal not only to acquire SLIAG-related eligibilty inormation, but also to
             assess English-speakng abilty and knowledge of the history and governent of
             the United States. Based on the apprasal, individuals wil be referrd to
             appropriate programs and progr levels.
Neverteless, there are some funds contrl vuerabilties. Findigs and recommendations
concerng these vulnerabilties follow under major topic areas.


PUBLIC ASSISTANCE

Assistance or Serves Activitis

The Deparent of Social Servces is responsible for State public assistance activities. These
activities include:


             Emergency Assistace     to Adults;
             Supplementa Securty Income (SSI);
             Home Relief, Foster Car,   foo staps (adistration);
             Methadone Maitenance;

             Residential Drug Free and Ambulatory Drg Free;

             Outpatient -Tertar, Inpatient, Residential;

             Ofce of Menta Retation and Developmental Disabilties; and

             Alcohol Treatment and Rehabiltation    program.

No new SLIAG-relate programs were established in public assistace. The State
responsible for such services. However, vendors and contrctors may be used.

Documentation of Eligible Legalized Alien Status

Pror to the avaiabilty of the StatelFedera Charge Indicators for Services System, local
social servce distrcts were instrcted to identify and maintai a manual list of individuals.
These persons ar determned to be eligible for SLIAG-reimbursable assistace and services
as a result of an adjustment of their alen status under IRCA. This inormation will be
maintaed in the client s record. For those eligible legalized aliens who ar eligible for
Medicaid, a separte code wil be assigned, and it wil be added to the curnt system.
Program Costs

The Deparent of Social Services ' Offce of Budget Management used the most recent
expenditu data and client population estimates available to project progratic costs. The
SLIAG application represents the deparent s best estiate of expenditus required for
progr implementation. The State anticipates no major changes in the accountig system.
The budget offce wil treat SLIAG as if it were a separte grant by giving the SLIAG
progr its own cost center code. Clai wil be made agaist this code.
Distrbution of funds between State agencies wi be based upon projection of costs and
avaiable Federa funds. Prority in alocations wi be given to programs meetig the
subsistence nees of the eligible legalze alien population and progrs providing language
and citizenship instrctions necessar to adjust to imgration status.

Mter Federa transfer of SLIAG funds to the Deparent s Federa Assistace Financing
System, the Deparent of Social Servces wi effect a drawdown and initiate a certcation
of fuds for the Division of the Budget On a monthy basis, the Deparentof Social
Servces wi provide a conCUIent payment to the other State agencies based upon a stadad
clai form. An ongoing conCUIent payment/reconcilation         proess wi be performed by the
Deparent of Social Servces.

Actual expenditus wi be reonciled compiled, and adjusted annualy. Financialliabilty
for inappropriate expenditus or nonuse of SLIAG funds, and consequently for any audit
exception wi reside with each State agency receivig and expendig funds. Acknowledgig
and acceptig this responsibilty is a condition of receiving   funds.


Administrative Costs

At the tie of the on-site review, the deparent s indiect cost rate was 35. 59 percent
Personnel tie   is prorated and the costs spread across the programs. Cost estiates in the
application reflected State and local costs. These estimated costs are not duplicate between
progrs and fees, and thir-par revenues have been elimnated frm these estimates.
Detals of expenditus encompassed in the quarrly expenditu report submittd on ths
and other progrs ar received in the Deparent of Social Servces for the comptroller
prepartion of reports for components receivig SLIAG funds. There was no indication as to
when the State wil be audited under the single audit progr.

Drawdown of Funds and Cash Balances

The details of the Memorandums of Understanding have not been finalzed, but it is expected
that the drawdown of Federal funds will be no different than the curnt procedur. Under this
procedur, the Deparent of Social Serviceslbudget offce would receive a grt award frm
the U. S. Deparent of Health and Human Services (HS) and reflect the funds on a budget
certcate. The     fiscal sta   would then   drw funds on an " as needed" basis upon approval of
the budget certcate.

The procedur for interagency (interdeparental) transfer of funds agai is the same as for
other Federa    progrs. There are basicaly two ways that the transfers could be processed:

                The Deparent of Socia Services could subalocate funds by certcate          and
                have a Memoradum of Understading in place with the afecte State
                agencies, or

                The Deparent of Social Servces could transfer monies by means of a joural
                voucher or speal charge voucher. Ths method of trsfer is generay covered
                though a Memorandum of Understadig.
FINDING: The Stat had not developedfonnal procedures/or peridic              reviews 0/   cash
balances.

As the grantee agency, the Deparent of Social Servces is responsible for the
interdeparenta trsfer of SLIAG funds to car out the puroses of the legislation. The
process of monitorig any cash balances that may be create as a result of these transfers is
though accessing the New York State comptroller s termal. However, the State did not
have form proedures in place to conduct periodc reviews of cash balances.

RECOMMENDATION: The Departent 0/ Socia Serves should develop and implement
/onnal procedures to ensure that the deparent is aware of cash balances that may exist as
a result 0/   interdepartental transfers of SLIAG funds.
PUBLIC HEALTH ASSISTANCE

Assistance or Serve Activities

The State Deparent of Health will provide servces and treatments related to sexualy
trsmitted diseases, imunizations, prenatal car, famy planing, tuberculosis, mv testing,
substace abuse, outpatient-priar and seconda, and            alcoholism prevention.

No new progrs were established because of the SLIAG fundig. Most of the programs are
adstered diectly by the State or thugh agrements with the individual counties. The
counties may then have agreements with individual providers such as famy plannig,
prenata car, and community health centers.


The application process wil     be nodifferent for eligible legalized aliens than it is for other
recipients of services. Curntly,   the State is unable to document and identify the individual
eligible legalized aliens that wil utiliz the services provided. The cUIent protocol is to serve
anyone who requests servce regaress of alen status. Proof of alen status is not requested.
Because of this protocol , the State wil continue to utiize the ratio method and wil   exclude
frm SLIAG funds dollars received frm other Federal programs.

Program Costs


FINDING: The FSA' s definiton o/public assistance includes some public health assist­
ance activities which created administratve and servce delivery problems/or New York.

The SLIAG progr reuirs that certn tertar level public health progrs be considered
as public assistace. Ths reuirment has substatial impact for the State because it is now
imperative to identi the individual eligible legalze alens so that costs can be documented
for them. Ths reuirs extensively modfyg procedurs and may negatively afect alens
seekig medical servces. State offcials were concerned that the FSA was not aware of the
problems ths could create for the State.

RECOMMENDATION: The FSA should reconsider its position to classif certain public
health servces as public assistance and make approprie adjustments to this position.


Administrative Costs

Accordig to staf, the deparent s CUIent indict cost rate has not been approved
Although the Memorandum of Understadig has not been fmalzed, the State believes that it
wi not be necessar to mod the accountig system. Expenditus wil be documented by
deparents as they ar reeived frm the contrctors. The Deparent of Social Servces
deals diectly with the State Deparent of Health' s Offce of Health Systems Management to
discuss the bad debt and charty pool cases. The deparent wil use a formula approach
whereby public health costs will be reimbursed with State and local dollars, and State
reimbursement claied from SLIAG funds.

Drawdown 0/ Funds and Cash Balances

The Deparent of Social Servces provides funds to the Deparent of Health though
quarrly certcates of trsfer.


EDUCATION

Assistance or Service Activities

In New York , SLIAG funding for educational services wil  be reserved for adult progrs,
specifically language and citizenship preparation. Because of the small number of children
who would be eligible to enroll in the SLIAG progr, no services wil be provided to
childrn.
Educational servces wil   be provided to    adults thugh local education agencies,
postseconda institutions, qualifed designated entities, community- based organizations, and
other public and private not- for-profit agencies that have shown their effectiveness in
deliverig instrction in English for speakers of other languages and citizenship education.
Anualy, the State Deparent of Education operates a program of adult basic education in
English for speakers of other languages, and high school equivalency instrction for
approxiately 115, 00 out-of-school youth and adults. Prgrams are operated by school
distrcts, Boards of Cooperative Educational Servces, postseconda institutions, libraes,
community- based organzations, and volunteer grups.

The State Deparent of Education planed to contrct with CUIent providers to conduct
SLIAG-relate educational program. In some cases, the State Deparent of Education wil
contrct with smaler providers though intermedares. It is anticipated that addtional
providers wi parcipate in the program. The deparent will award SLIAG fundig to
eligible agencies based upon submission and consideration of requests for proposal bids.
Eligible agencies applyig for SLIG funds wil receive awards based on factors such as the
number of eligible legalize aliens aleady being served, the number estiate to be served in
the progr year, demonstrted effectiveness in providing English for speakers of other
languages or citizenship instrction, reasonable costs relative to other applicant agencies,
outrach referral, and comprehensiveness of planning with other agencies.

In New York City, where an estiated 80 percent of the eligible legalze alens 

parcipate in progrs, $500 will purhase approxiately 111 hour of instrction. Thus,

SLIAG fundig alone should be suffcient to fund the needed instrctional program to meet

perment resident status.

Documentation of Eligible Legalized Alien Stats

It is anticipated that agencies receivig SLIAG funds will conduct a pre-enrllment
assessment to determne an eligible legalzed alen s abilty to speak and understand English
and knowledge of the history and government of the United States.

The pre-enrollment appraisal proess will provide informtion on students ' educational
history, demogrphic charcteristics, and data supportg their tempora residency status.
Based on ths apprasal, each eligible legalizd alen will be referrd to appropriate programs
and program levels.

The students wi   be identied   with a centralze data system  known as "Alles. " It will be
modfied thugh the Litera        Assistace   Center in New York City. The major providers are
curntly par of this system. Servce providers receiving SLIAG funds periodcaly ar
expected to report on the recipients, purose,   and   extent of such funding.
Program Costs

The individual requests for proposals wil address the issues of fundig to the parcular
providers as well as the relate SLIAG costs not claimed for other progrs. Each individual
provider is expected to fie a fisc or progr report. Sta from the State Deparent of
Education wil perform desk audits, provide technical assistace, and monitor progrs on
ongoing basis.

The SLIAG funds ar disbured to the Deparents of Social Services and Education , and
subsequently distrbuted to eligible agencies by provider contrcts. Advance payments ar not
given to agencies under contrct The one alowable exception is for funded, not- for-profit
agencies, who ar able to receive 12.5 percent advance payments.

Agencies receivig funds under   this program must collect and report data to document or
veriy enrollent, attndace, progrss, certcation, and     progr expenditus. Ths allows
the deparent to monitor cash balances. At the time of the review, a Memoradum of
Understadig between the two agencies to transfer SLIAG funds from the Deparent of
Social Servces to the State Deparent of Education was nearg completion.

Administratve Costs


The State Deparent of Education has confidence in the CUIent comptroller s accountig
system and feels that addng SLIAG to the system wil not present a problem. Accordig to
staf intervewed, the State Deparent of Education is the designated agency for determing
an indict cost rate, which is a component of admistrative costs.

The State Deparent of Education and the Deparent of Social Servces had not finalized a
Memorandum of Understading regardig the Deparent of Education s liabilty and how
theadstrtive     costs will be dispersed. Plans ar to use the curent State comptroller
procedurs for alocatig funds. Admistrative costs wi be funded from other components

                                SLIAG.
with the deparent. Since ths is a short-term progr, the deparent is reluctant to
incrase the number of sta for

Drawdown of Funds and Cash Balances

The Deparent of Social Services provides funds to the State Education Deparent though
quarrly certficates of trsfer.


CROSSCUTTING ISSUES

Accordig to fmal regulations published Marh 10, 1988, States had to submit the FY 1988
application no later than May 16, 1988. Revisions to the application had to be submitted by
July 1, 1988, and the FY 1989 application had to be submitted no later than July 15, 1988.
  Applications were to contan brief descrptions of the State progrs or servces, estimates
  of the State s SLIAG-related costs for each program or activity for that parcular fiscal year
  (including inormation on the number of eligible legalze alens residing in the State), and a
  brief explanation of the methodology used to estimate these costs.

  FINDING: The FSA application review process creatd a number of signifcant problems
 for New York. Also, the FSA' s applicaton review process interfered with the State s abilit
. to plan for servces.





               Delay in FSA issuing the implementing regulation resulted in the State
               inabilty to properly plan for SLIAG.



               Numerous policy misinterpretations and disagreements resulted because FSA
               did not provide defInitive wrtten instrctions to assist New York in
               understading SLIAG application requirments.

               The tie frames were too short for submittg the intial SLIAG application
               review and comment, and revisions of the application.

               Implementing SLIAG- funded programs was delayed because of a signifcant
               delay in notiying New York of the grant award.


  The FSA has the responsibilty to review and approve or deny State applications for SLIAG
  fundig for designated program. The application approval is a key proess for the State since
  it must wait for FSA action to know which progrs have been approved for SLIAG funding
  puroses.
  RECOMMENDATION: The FSA should make its application and grant process more

  orderly. Specifcally, FSA should



               provide defitive wrtten instrctions on the SLIAG application requirments
               and establish a dialogue with New York on SLIAG policy, compliance, and
               reportg issues to miimize the confusion that occurd in the initial application
               process;

               ensur that sufficient time is allotted to the application process including New
               York' s initial application , FSA' s review and formal comment , New York'
               consideration of FSA comments and negotiation of disputes, and its submission
               of the revised application for FSA approval; and
             revise the grant award proess for approved applications so that the notice of
             grant award reaches New York prior to the begining of the fiscal year.
FINDING: The State did not have methodologies in place to identify eligible legalized
aliens to record costs for public assistance and public health assistance.

The Deparent of Social Servces anticipates establishing a State/Federa Charge Indicators
for Servce system to identiy and mantan information on eligible legalize alien status. The
deparent had instrcted local social service offces to obtan information on applicants
eligible legalzed alen status thugh a manual operation.

The Deparent of Health is responsible for admistering al public health progrs,
includig those progrs classifed as public assistace for SLIAG funding puroses. The
deparent had not developed a proess or methodology to identify individual eligible
legaliz aliens so costs applicable to them can be identified.
RECOMMENDATION: The Departents of Social Servces and Health should develop
and implement a process to effectively identify indiviual eligible legalized aliens.


FINDING: State interdeparntal Memorandums of Understanding outlining each
deparenfs liability for SLIAG funding purposes ha not been finalized.
The th    entities involved inadsterig   the SLIAG progr ar the Deparent of Social
Servces, the State Deparent of Health, and the State Deparent of Education. Individual
Memorandum of Understadig were being prepar to outle each deparent s liabilty.

RECOMMENDATION: The State should take the necessar action to finalize all
Memorandums of Understanding so tha interagency responsibilitis can be clearly set
forth and acted upon as necessar.
                           OIG RESPONSE TO COMMENTS


The FSA and the State of New York both commented on the drt report

THE FSA

The FSA has generaly    agr   with the OIG report findings and recommendations. The FSA
has taen a number of steps to improve implementation of the SLIAG progr includig
claryig program policies and proedures. In the report the State had severa concerns about
how FSA adstered the progr. We have moded               certn aspects of the report based on
the comments received frm FSA.

The FSA questioned the statement that the new population would signifcantly increase public
assistace and public health assistace servces. Early estiates indicated that large numbers
of alens would qual to access the SLIAG program. The report recogn that information
obtaed durg the review determned that substatial incrases in workloads and
expenditus could occur in these aras as well as in education. However, we understad from
recent discussions with States ' offcials that the demand for service nationally is falling
behind earlier projections.

The FSA' s   defition of public assistace included some public health activities which crated
admstrative and servce delivery problems for New York public health agencies. The OIG
recommended that FSA reonsider ths position.


The FSA replied that they see this priary as an issue of cost identication and that they wil
work with the States to develop method of documentig costs which ar consistent with
FSA' s responsibilties as stewards of public funds. We believe that FSA' s actions to identify
alternative methods is responsive to our concerns.

We contiue to believe that a strct interpretation which permts public health costs to be
claied only for specifc eligible legalze alens is burdensome to the States and, in many
cases, would reuie considerable revisions to the States ' system or statutory requiments.
However, we do agr that FSA' s use of alternative systems, such as the Cost Documentation
System and a revised population ratio method system which reflects usage, would be a
positive effort to enhance cost effectiveness without reuirg States to develop new systems
or make considerable revisions to present systems. The population ratio method could be
revised to consider not only eligible legalized aliens in the servce population but also use of
those servces by the eligible legalized alien population based on informtion aleady obtained
from progr experience. Where appropriate, other alternatives might be used which would
produce a more effcient system for the States and address congrssional intent that the States
would not be required to establish new or elaborate systems.
We report that no formal appeals proess exists if program costs ar denied in the fIrst level
review. We agree with FSA' s statement that the Grant Appeals Board does have jursdiction
over matters for withholdig and repayment of SLIAG funds. However, it was the States
concern that an effective appeals mechanism be in place for issues involving program or
costs at the fIrst level of FSA' s review in the application process.

The FSA made numerous comments to clarfy certain matters    of fact ,   policy, or procedur.
We have included these comments verbati in Appendi

The Stae Of New York

The State has generay agreed with the OIG report fIndings and recommendations. Their
comments ar included verbati in Appendix C. Two of the thee deparents (Social
Servces and Education) indicated specific steps they have taken to fuer implement the
SLIAG progr since the time of the on-site review.

However, based on the comments received from the Deparent of Health, there is no
                                                                              legal
indication that they have established a process to identify individual eligible  alens.
Ths process is necessar when certn public health assistace progrs ar considered as
public assistace for SLIAG fudig. Claims for reimbursement of such costs would be
improper where costs cannot be traced to individual eligible legalized alens.
 APPENDIX A



GOOD PRACTICES

A number of practices have been identified that other States could shar.

     In New York City, which has the bul of the State s adult education progrs, the State
     wi use a system known as "Ales" to identiy eligible legalzed alens and document
     costs for the adult education program. The eligible legalzed alens seeking educational
     servces have   generay been identied, since ths system was in place prior to implement­
     ing the SLIAG progr.


     The State Deparent of Education wi use a wide varety of curnt educational servce
     providers, though contrcts, to conduct SLIAG-related educational progrs. These pro­
     viders have proved their effectiveness in deliverig instrction in English for speakers of
     other languages, citizenship, adult basic education , and high school equivalency for out-
     of-school youths and adults. The providers include local education agencies, postsecond­
     ar institutions, qualed designated entities, community-based organzations, and other
     public and private not-for-profit agencies such as school distrcts, Boars of Cooperative
     Educational Servces, librares, and volunteer groups, most of which are afilates of the
     Literacy Volunteers of New York State.


     In order to meet the parcular needs of eligible legaliz aliens, educational agencies re­
     ceivig SLIAG funds ar expecte to conduct a pre-enrllment apprasal process. This
     process wi provide inormation on an individual' s abilty to speak and understand En­
     glish , knowledge of the history and governent of the United States, educational history,
     demogrphic charcteristics, and residency status. Based on the apprasal , individuals
     wi be referred to appropriate progrs and progr levels.


     Pror to the avaiabilty of an automated StatelFedera Charge Indicators for Servce Sys­
     tem, the State Deparent of Social Servces instrcte local social servce distrcts to
     identiy and maitan a manual list of individuals determed to be eligible for SLIAG-re­
     imburable assistace and servces. The list would include an individual' s State identity
     number, alen registrtion   number, legalization status, the date legal status was granted
     under IRCA, and the tye of benefits provided The information would be maintaied in
     the client s record where it would be available for entr into the automated system.
 APPENDIX B



FSA' S COMMENTS

.";
 . ;
 

    -:..'"

                                                                                              APPENDIX B


                DEPARTMENT OF HEALTH II HUMAN SERVICES                              Family SuPPOrt Admlnlalratlon
                                                                                    Office 01 Relugee Ruellemeni

                 Refer to:                                                          Memorandunl
                   ly 14. 1939

       Dall:

       From:   Acting Assistant Secretary
                 for Family Support
       Subject: OIa Draft Report: Implementation of the State Legalization
               Impact Assistance Grants Under the Imigration Reform                     and
       To:
               Control Act of 19S6 - New York               .r-1I7- FI-1It:   't/

               Richard P. 
                 usserow
               Inspector General


               Attached are the Family Support Administration comments on

               the above draft report. Many of our coments are technical
               in nature due to the complexity of the legislation . and the
               fact that the SLIAG program was very new at the time of the

               review.
               We appreciate the assistance and cooperation we have

               received from you in response to our request to conduct this

               round of reviews of the SLIAG program. The reports we
               received are very useful to us in understanding how States

               are implementing the program.





                                                      erine BertJ.ni

               Attachment

                        OIG DRAFT REPORT:

Implementation or the state Legalization Impact Assistance Grants
     Under the Immigration Reform and Control Act of 1986:
                             NEW YORK
The Family Support Administration I s comments are divided . into
three sections: Comments    on background information and other
narrative material that does not relate directly to the draft
report I s findings, comments on the findings, and responses to the
draft report I s recommendations.

Narrative:
Page 1 (Background) -- The draft report says, "This new
population will increase the demand for state public assistance
and public health assistance services significantly. II The draft
report isn It clearwhose conclusion this is or upon what data and
analysis the conclusion is   based.The final report should
clarify these points.

In the course of implementing SLIAG, we have discovered that
neither state and local public health programs nor, with few
exceptions, public assistance programs, inquire about legal
status.   This suggests that at least some aliens were using these
services before legalization and that newly legalized aliens do
not represent a " new population" for public assistance and public
heal th assistance services. Preliminary cost data from States
suggests that newly legalized aliens are accessing public
assistance services at rates far lower than the general
population.   There are indications that a backlog of public
heal th needs existed and was identified during the medical
examinations required of all applicants for legalization.
However, there is no data to suggest that, other than this
temporary bulge in demand for public health services, newly
legalized aliens will generate a significant increase in demand
for pu lic health assistance or public assistance services.

Page 2 (Background) -- The draft report says, "States must

develop a method acceptable to FSA fo determining administrative

costs. II The final report should note" that several methods for
determining: the share of administrative costs in ongoing programs
that are allocable to SLIAG and which are acceptable   a Driori are
specified in the regulation at 4S CFR 402. 22 (b) . The process of
determining SLIAG administrative costs (those costs incurred in
administering the SLIAG grant itself), like all costs associated
   ith administering HHS grants, is governed by 4S CFR Parts 74 and

92 and relevant OMB circulars.


Page S (Public Assistance) -- The draft report states, "No new
SLIAG-related programs were established in public assistance. " It
is important to note that all programs of public assistance must
mpp   hTee criteria. First they must be generally available to
the population of the State. Secondly, they must be means-
tested.  Lastly, they must provide for the subsistence or health
of the individual. As noted above, the requirement that the
programs be generally available would preclude the State from
developing any prog ams for " eligible legalized aliens.  The
final report should make that point clear.

Page 8 (Administrative Costs) -- The draft report says, "The
Department of Social Services deals directly with the State
Department of Health' s Office of Health Systems Management to
discuss the bad debt and charity pool cases. II It should be noted
that SLIAG funds do not pay for bad debt.

Page 8 (Education) -- The draft report says, "Annually, the State
Department of Education operates a program of adult basic
education in English for speakers of other languages, and high
school equivalency instruction for approximately 115, 000 out-of­
school youth and adults. It should be noted that the three- year
rule limiting SLIAG reimbursement to students who have been
enrolled in school for less than three complete academic years
also applies to the " out-of-school youth" group.

Page 10 -- The draft report says, "Advance payments are not given

to agencies under contract. The one allowable exception is for

private, not-for- profit agencies, who are able to receive 25

percent advance payment. II It is not clear if this is an

exception allowable only under contract or if the State is

generally allowing a 25% advance.


Findi
Finding:   since 1987, FSA has held national conferences and
           issued information to states on implementing the SLIAG
           program.­
Comment:   Since the OIG' s onsite visits in August 1988, we have
           continued to provide assistance to States. We have
           conducted several more workshops and meetings to assist
           states in implementation. n October 1988, we issued a
           compendium incorporating the extensive formal guidance
           previously provided to states on methods of cost
           documentation. We also have provided assistance to
           individual states in the form of correspondence,
           telephone . consultation, and onsite technical
           assistance. We are in the process of conducting
           initial program reviews of the major States, and intend
           to visit selected other states as well.    We request
           that the final report reflect this continuing dialogue
           with states.

Finding:   The FSA' s definition of   public: assistance includes some
           public health activities which creates administrative
           and service delivery problems for New York.
Comments:	 We question how the definitions of public health and
          public assistance create service delivery problems for
          New York public health agencies. By law and
          regulation, all programs or activities under both
          categories must be generally available. In practice,
          this means that SLIAG funds are available only to
          reimburse costs in ongoing, generally available
          programs. In most programs, immigration status is not
          a condition of eligibility. If the alien is eligible
          for services, he or she would receive those services
          regardless of whether they were reimburse under SLIAG.
          The final report should clarify this point.

          The draft report notes that "there is no quarrel with
          the logic of FSA' s definition of public assistance
          versus public health, " but does not explain why the OIG
          recommends that FSA reverse its logic. The final
          report should explain that the regulatory definitions
          of public assistance and public health assistance are

          based directly on the Immigration Reform and Control

          Act of 1986 (IRCA) which created SLIAG.

          Programs of public assistance are defined as programs
          that " provide  for cash, medical or other
          assistance.. . designed to meet the basic subsistence or
          heal th needs of individuals " (section 204 (j) (2) (A)
          emphasis added). Consistent with IRCA' s explicit
          inclusion of medical assistance under the public
          assistance category, FSA considers state or locally
          funded programs that provide medical treatment to needy
          individuals to be public assistance programs.

         IRCA defines programs of public health assistance as

          programs which " provide  public health services,
         including immunizations for immunizable diseases,
         testing and treatment for tuberculosis and sexually-

         transmitted diseases, and family planning services" 

         (section 204 (j) (3) (A) J. These statutory definitions

         and the legislative history indicate that Congress

         intended to allow certain traditional public health

         functions under the public health assistance category

         and medical assistance to the needy under the public

          assistance category. In    implementing SLIAG, we have
         followed that statutory framework. We have defined
         publ ic health assistance as, among other things,

         programs or activities that " are provided for the
         primary purpose of protecting the health of the general

         public" (45 CFR 402. 2).    The s90pe of programs included
         in that regulatory definition bf public health

         assistance goes far beyond the specific activities

         listed in IRCA.

.' ,


        .J '





                                   The public assistance/public health assistance
                                   categorization issue is primarily one of cost
                                   documentation requirements, not the allowability of
                                   costs associated with any particular health program.
                                   Under our regulation, states are allowed to use a
                                   single ratio of the number of ELAs in the service
                                   population to the total service population to establish
                                   actual costs for public health assistance programs , as
                                   defined for SLIAG. Implicit in this method is the
                                   assumption that   . eligible            legalized aliens will access
                                   programs in the same frequency and at the same cost as
                                   the general population. We do not believe this
                                   assumption to be appropriate for medical assistance
                                   programs that provide treatment to needy individuals.
                                   To the contrary, the information that we have to date
                                   indicates that allowing use of the population ratio
                                   method for these programs generally would overstate
                                   costs, dramatically in some cases. However, we would
                                   be willing to allow use of the population ratio method
                                   for any program for which there is an 
              empirical basis

                                   to indicate that doing so would not overstate costs.


                                   FSA realizes that many public assistance and public
                                   heal th programs do not routinely collect information on
                                   immigration status but has found that many do collect
                                   social security numbers. That is . why we funded and
                                   devoted substantial staff resources to developing a
                                   system that will match the social security numbers of
                                   program participants with those of newly legalized
                                   aliens.  This system gives states information on the
                                   numer of newly legalized aliens participating in a
                                   program and the cost of services to them. It is now
                                   available and allows states to establish costs for FY
                                   1988 as well as current and future         years.
                                                                               Recently, we
                                   sent State SLIAG Single Points of Contact suggestions
                                   for other possible methods  or establ ishing costs.
                                   None of these alternative methods requires setting up
                                     w administrative mechanisms or checking status of all

                                   program participants.

                                   We will continue to work closely with New York to

                                   develop methodologies to ddcument costs for all

                                   programs in its approved applications.

                Finding:           The FSA appl ication process created a numer of
                                   significant problems for New York. Also, the FSA             IS
                                   appl ication   review process interfered with the state I s
                                   ability to plan for services. 

                  .ILlI-=U C.s :   The draft report says that the time period for

                                   submission, review , revision and approval of the

                                   initial application was too short. We agree that it

          would have been preferable to have had a longer period
          of time between the publication of the final regulation
          and the deadline for submission and approval of FY 1988
          and FY 1989 applications. However, the final Teport
          should note that, because of the way IRCA set up the
          allocation formula, one maj or reason for the compressed
          timeframe was that we could not award funds to any
          state until all States' applications had been approved.
          In order for us to run the allocation formula, which
          IRCA requires to include estimates of costs, we must
          have approved estimates for all states before we can
          calculate states' allocations.

          The draft report says that " numerous policy

          misinterpretations and disagreements resul 	ed because

          FSA did not provide definitive written instructions to

          assist New York in understanding SLIAG application

          requirements. II Had there been more time, we would have
          communicated more extensively in writing    Our current
          practice is to communicate in writing on all
          substantive issues regarding state applications,
          amendments, and end-of- year reports.

          The report says that no formal appeals process exists
          if programs or costs are denied. The Grant Appeals
          Board has jurisdiction aver issues related to the
          wi thholding and repayment of funds. For other matters,
          the State may follow normal procedures for disagreeing
          with an agency finding.
Recommendations:
Recommendation: The FSA                       grant process should be made more
           orderly.
Response:	 The draft report's recommendation refers to the FSA
          grant process, but the specifics indicate that it is
          referring to the SLIAG application and grant award
          process. . The language of the recommendation should be
          more specific.
          We agree that the appl ication process should be

          conducted. in a more orderly fashion than was the case

          for the initial submissions. As the draft report

          indicates, the timeframes for the FY 1988 and FY 1989

          application processes were necessarily short. 

          effect, the states and we had to complete two

          application processes in less 
 han a year. We do not

          expect similar problems for the FY 1990 and FY 1991

          application processes.

            To ensure that states have adequate time to prepare
            their FY 1990 applications based on empirical data, we
            have extended the deadline from July 15 to October
            Addi tionally, we have encouraged states to submit as
            early as possible any new programs, questions, or
            issues, and have advised them that they may submit all
            or portions of their applications at any time.

             In order to reduce the possibility of misunderstanding,

             we have advised states that we will communicate all

             substantive questions and concerns on their FY 1990

             applications in writing, as was done for States' end­

            : of- year reports. We issued extensive written guidance
             on the FY 1990 application process and the standards we
             will apply.

            The draft report also recommends that we develop an
            appeals process to use if programs or costs associated
            wi th providing services are denied in the initial
            applications process. We do not believe such a process
            is necessary. The Department. s Grant Appeals Board has
            jurisdiction over cases involving the repayment or
            wi thholding of funds.  Normal channels wi thin the
            Department are open to States that disagree with
            decisions made during the course of application review.
Recommendation: The Departments    of Social Services and Health
            should develop and implement a process to effectively
            identify individual eligible legalized aliens.
Response:   HHS has made a variety of options for tracking costs
            available to states. If it is not possible or cost
            effective for States to base their SLIAG related costs
            on an actual count of eligible legalized aliens
            accessing services, states may opt to use the Cost
            Documentation System, the population ratio method (for
            public health assistance), .or statistical sampling, or
            states may suggest al terna   ive methods to HHS.
. - '- -   ,,'" ::,-'-
                         :... " 0
                                    -- .




                                               APPENDIX C


                                           NEW YORK' S COMMENTS
               '!                                                                          .., ,
                                                                                            , ..
                                                                                               ,.,   .,

                                                                                               APPENDIX C


  EW YORK STATE

 DI:PARTMEST Of SOCIAL SER\'ICES
40 SORTH PEARL STREET. AlBASY, SEW YORK 11243.
CESA A PE ALES
  rnn''''I'U')ft'f




                                                       RE: You      IP
                                                                     Rert on the Reiew
                                                          of Stte I.ization   Inct
                                                          Asist Grt 

                                                                                 PICyLaI
                                                                                   (SUN)
                                                          (#89-036, Formly 88-P.28)
 De
                   1"
         Mr.




 illemtion
             isof thinStte Leization
                              to yo Jun 19, 1989 rert                                         on th
                                     Inct
 of Heath (D:) am Stte. We sh th rert with th Stte'

                                   Det
         coidetion. ar attch thir cx
 Prl:ei in Ne York                                                      Asis Gr

                                                                                              (SUN)
                           Fdcation (SE) am
. your                                                                                               for
    Her
 Depa.      \t wil           add          thos         I'lil-= ticn add to th
 inep
    Fir, \t                le:of SLI
                         trfer       th                    fon                             to mr.itor
   Se, in
identify eligible legized alienre
                           to deelcpin an
                                        to    ord
                                                 fu.




                                                                        bpler
                                                                        rerd cx        ap   rns
asist proide , \t alredy in                 sutt                                           for pulic
base on p:ation                       a P                       methodolog,claiJ
Assis
to us eith th
                 (ISIA) for
                           ratios, to theFeder Division of Stte Leization
                               appro. If tht apprc is mt given so, we plan
methodolog for        claiJ 1988 co.tian Syst or
                          Co
                                                                             a sttisicaly vaid




                     AN EOUAL OPPORTUNITY/AFFIRMATIVE ACTION EMPLOYER
                                         Page 2





Mera  Finly,
           of
M: with SE ar ar    t1
                    relative to

                       in a
                      d.evel
agenies inlved in SLI p.lic
                                   th



                                        stzed
                                        asis
                                  (Ks) be finized,


                                         KX
                                     clai.
                                                      Ialertion    tht all integen
                                                                    ne have
                                                                   for al     ot Stte
                                                                              in place an



      'Iadd co.
adeqtey yo
                for shin th report with us
                    you
                                                              an       tr ou c:ts
                                                               :'1./

                                                 O:ssion./
  Rich
Inr
Mr.       P.
       an Hl seice
     Inr
Dept. of Heth
Office of
Ro5250
                "

 Irepen
Wasn, D. C.Aven
200
            20201
                  S.

Attadm
   "'
   ~~~
 .,;,;,;
     , .            :-. , ., :'. .. ':., . : - .!:j                                     )\,                   :" p.   ..,
                                                                                                                      .,                     ,:'                                      ".




   :ib1%1                                    1f1P
                                                         STATE OF NEW YORK
. ':t4' ,.
       "i-                                               DEPARTMENT OF HEALTH
                                                         Corr":-'9 T':.'/er   It'0 G'         . N/ 'I' )LV'                 )!er       ;)r
                                                                                                                                   f r""           ,;. P;.'   t.;I);jr.   "'lCo'. "        ?2::­

    i)' l:"1 :"         'r ': ' ' I.

      ,.I.   I . :. 



                                                                                               July 20. 1989





                          Joseph P. Ferrone

                          Director
                          Bureau of Pol icies. Plans and Programs

                          Office of Audit and Qual i ty Control

                          NYS Department of Social Services

                          40 N. Pearl Street

                           Albany. New York 12243-0001


                           Dear Mr. Ferrone:

                                                                                                                                                       ' on
                                     Department of Health staff have reviewed the audit         Overall,
                            implementation of the State LegalizatiOn Impact Assistance Grant.
                            the report reflects accurately the comments and concerns raised during    the
                                                                                                    The
                            meeting with OIG officials by Department of Health representatives.
                            report acknowledges the problems inherent in the Family Support
                                                                                The lack of coherent
                            Administration ' s (FSA) management of the program.
                                                                        commni cat ion between DHHS and
                            rules. the dearth of guidance and the poor                    fficul t to
                            the states has made a compl icated program infinitely more di
                            manage. The specific recommendations which apply to the Department of
                             Health , warrant several comments,
                              Recorrendat ion:
                                                   The FSA should recons.der its position to classify certain public

                              heal th services as public assistance and make appropriate adjustments to

                               this position.


                               Comment:
                                                                                                      Programs
                                           The Department of Heal th agrees with the recommendation.
                                  classified as public assistance-   ow require a tracking system to identify
                                  individual eligible legalized aliens

                                                                         (EtA) using the service. Programs
                                  approved as public health

                                                             ssistance can be reimbursed using the ratio

                                                                        EtAs is impossible because legal
                                  method. Individual identification of
                                  status is not routinely asked when public health services are provided.
                                  Inclusion of this question could act as a disincentive for program
                                                                                of a service,

                                  enrollment of those individuals most in need '

                                                                                  o see the concept of " publ i c
                                            The Department of Health would 1 ike
                                                                                   rams des i gnared as publ ic
                                  heal th" expanded by the FSA to include all pro        programs are el igible
                                  heal th by the State. The FSA staff deterining which
                                  under the public health category have no 

                                                                                  ing in public health, Public
                                  health programs provided by the Department and available to New York

                                  residents (whether ElAS or not) should all be eligible for reimbursement

                                  under the heading of public health assistance.

Recorrendat ion:
         The Departments of Social Services and Heal th should develop and

implement a process to effectively identify individual eligible legalized

al iens,
Coment:
           This focuses on the same issue discussed. above. Identification
of ELAs is incompatible wi th  the Department' s posi tion of providing service
to all individuals regardless of their legal status, Even if a method could
be  dev ised, it would not be cost-effective. The difficulties associated
wi th designing and implement ing a tracking system are formidable.
                                                                       It would
be simpler and less costly to use the ratio method of determining
reimbursable costs. If the FSA redefines some programs as publ ic health
assistance rather than public assistance, the issue of identifying

individual ELAs will be moot.


             Thank you for sharing the audit report with   us.




                                       Robert W. Reed

                                      Director
                                       Fiscal Management Group




dIp

cc:	   Mr.   Leavy
       Mr.   VanDeCarr
       Dr.   Novick
       Ms.   Buckley
       Ms. Klein

       Ms. Carlton





                                     Page 2

               - -                             . -.. . .
                                                . ... .              '.   - ,. .        : '                        y' '   ,'



                                                                                                                 II,. W.k




THE STATE EDUCATION DEPARTMENT.                                                                           11F. !M4T( 0.        "IPo
                                                                                   :i     \ Y.   .. / t­
                                                                                                                               2::;..
EXECUTIVE DEPuTY CDMMISSIO"-ER OF EDUCATION
THE NEw YORI( STATE EOVCATION DEPARTMENT
ALBANY, NEW VORl( '2234



                                                                             July 13,         1989




Joseph P. Ferrone

Di rector
Bureau of Policies, Plans

And Programs
Office of Audi               t and Qual 
                 Control
New York State Department

of SocIal Services

40 North Pearl Street
Albany, NY 12243-0001
Dear Mr. Ferrone:
        In response to your June                                  29, 1989 letter, we have reviewed
the June
 1989 draft copy of the U.
General' (OIG) audit report                Office of Inspector
                             on New York State s implementation
                                                                             S.
of State Legalization Impact                                 Assistance Grant
                                                  (SLIAG) funding.
The State Education Department' s (SED) reactions are as follows:
        1.      On pages 4,
       correct in saying9, and 13 of the draft report, while OrG is
                         that plans were being discussed
       the central " ALLIES" data base, since then each of tothemodi fy
                                                                  four
       major education agencies has found it more expedi
                                                             tious to
       documenting costs. base      .
 for pro, ram
       develop its own SLIAG data
                                                                                                  reporting




        2. Onand
              page 10, the " cash advance " provided is
                                                                                                               1/2          not
       25%,       this
       prof! t. - agencies.
                                             was made available to all                               12

                                                                                              funded not-for­

       3.            Wi th

       Understanding (MOU)
                                       egard to
                                                     for
                                                                  expedi tin,
                                                                  FY 90
                                                                                   the Memorandum
                                                                          funding, SED
                                                                                                  of
                                                                                          and State
       Department of
       discussions to assure that the MOU
                                            Social
                             Services (SDSS) have already begun
                                          will be completed early
       enough to enable all contracts
       place by October 1,             andsubcontracts to       be in
                                           s incl udes
       continuation application which is to be returned by Julyof a
                                                       issuance
                                                          1989.



       identification of rollover funding, and interagency        28,
       discussions on the FY 90 funding level for
                                                  SED.
             ",I
       4",
t'fI




                            4.             e are

                                 Cood Prac:tices   pleased    that
                                                               set:lion
                                                                  SED

                                                                        of
                                                                        is extensively cited
                                                                           Ule
                           particularly

                           impl
                                                          elcomc
                                          emen la t i on prubl       in light of the
                                                                                  reports. 	


                                                             ems posed by the SLIAC
                                                                                             in the

                                                                                           This  is
                                                                                                          difficult
                                                                                               program.
                           I hope these comments are responsive to YOur 

                                                                                                request.
                                                                             Sincerely,



                                                                             Thomas E. Sheldon





                   vmc

                   cc:	   James A. Kadamus
                          Russell J. Kratz
                          Robert Purga




                                                                 C-b
0' ­

